Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




    NEW YORK CLAIMED
    NONHOSPITAL-BASED
 CONTINUING DAY TREATMENT
 SERVICES THAT WERE NOT IN
 COMPLIANCE WITH FEDERAL
  AND STATE REQUIREMENTS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General
                                                   for Audit Services

                                                        July 2014
                                                      A-02-12-01011
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 New York State claimed at least $18 million in unallowable Medicaid reimbursement for
 nonhospital continuing day treatment services.
BACKGROUND

WHY WE DID THIS REVIEW

During a prior review of New York State’s continuing day treatment (CDT) services, we
identified a significant number of services improperly submitted for Federal Medicaid
reimbursement. Subsequent to our audit period, the New York State Department of Health (State
agency) revised its requirements for reimbursing these services from an hourly basis to a half- or
full-day basis that requires a minimum amount of time and services be provided. On the basis of
our prior review and the State agency’s changes to its regulations, we decided to conduct
additional reviews of CDT services.

The objective of this review was to determine whether the State agency’s claims for Federal
Medicaid reimbursement for CDT services provided by nonhospital providers complied with
Federal and State requirements.

BACKGROUND

In New York State (the State), the State agency administers the Medicaid program. The State
elected to include Medicaid coverage of CDT services, a form of clinic services, which are
administered by its Office of Mental Health (OMH). OMH’s CDT program provides Medicaid
beneficiaries active treatment designed to maintain or enhance current levels of functioning and
skills, to maintain community living, and to develop self-awareness and self-esteem through the
exploration and development of strengths and interests. CDT services include assessment and
treatment planning, discharge planning, medication therapy, case management, psychiatric
rehabilitation, and activity therapy, among others.

To be eligible for the CDT program, a beneficiary must have a diagnosis of a designated mental
illness and a dysfunction due to a mental illness. The beneficiary’s treatment plan must (1) be
completed in a timely manner; (2) be signed and approved by both the beneficiary and the
physician involved in the treatment; (3) include a diagnosis of a designated mental illness,
treatment goals, objectives, and related services, a plan for the provision of additional services,
and criteria for discharge planning; and (4) be reviewed every 3 months. Also, the beneficiary’s
progress notes must be recorded at least every 2 weeks by the clinical staff members who
provided CDT services to the beneficiary and identify the particular services provided and the
changes in goals, objectives, and services, as appropriate. In addition, CDT services must be
adequately documented, including type, duration, and need for continuing services.

HOW WE CONDUCTED THIS REVIEW

During the period April 1, 2009, through August 17, 2011, the State agency claimed Federal
Medicaid reimbursement totaling approximately $143 million ($71.5 million Federal share) for



New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)            i
1,811,039 claims for nonhospital CDT services. We reviewed a simple random sample of 100 of
those claims.

WHAT WE FOUND

The State agency claimed Federal Medicaid reimbursement for nonhospital CDT services claims
that did not comply with Federal and State requirements. Of the 100 claims in our random
sample, 66 claims complied with Federal and State requirements, but 34 claims did not.

The deficiencies occurred because (1) certain nonhospital CDT providers did not comply with
Federal and State regulations and (2) the State agency did not ensure that OMH adequately
monitored the CDT program for compliance with certain Federal and State requirements. On the
basis of our sample results, we estimated that the State agency improperly claimed at least
$18,093,953 in Federal Medicaid reimbursement for nonhospital CDT services that did not meet
Federal and State requirements.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $18,093,953 to the Federal Government,

    •   work with OMH to issue guidance to the provider community regarding Federal and
        State requirements for claiming Medicaid reimbursement for nonhospital CDT services,
        and

    •   work with OMH to improve OMH’s monitoring of the CDT program to ensure
        compliance with Federal and State requirements.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency disagreed with our first
recommendation (financial disallowance) and did not indicate concurrence or nonconcurrence
with our remaining recommendations. Specifically, State agency officials stated that we based
our findings entirely on State regulations and, if OMH found claims to have violated the State
regulations we cited, those violations “would not have rendered the services non-reimbursable.”
The State agency also disagreed with our determination that, for one sampled claim, progress
notes were not prepared by a staff member who provided a service. Finally, the State agency
disagreed with our determinations that certain sampled claims did not meet reimbursement
standards.

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. We maintain that the plain language of the State’s regulations
provides clear requirements for Medicaid providers to be paid. Pursuant to 2 CFR part 225, Cost
Principles for State, Local, and Indian Tribal Governments (Office of Management and Budget
Circular A-87), to be allowable under Federal awards, costs must “[b]e authorized or not


New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)        ii
prohibited under State or local laws or regulations.” Therefore, we may conduct an audit to
determine whether Federal payments have been made in violation of State law and regulations
and recommend disallowances of Federal funding on the findings of such an audit.




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)      iii
                                                    TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

         Why We Did This Review ................................................................................................1

         Objective ...........................................................................................................................1

         Background .......................................................................................................................1
               Medicaid Program .................................................................................................1
               New York’s Medicaid Continuing Day Treatment Services Program ..................1
               Federal and State Requirements Related to
                 Continuing Day Treatment Services ..................................................................2

         How We Conducted This Review .....................................................................................3

FINDINGS ...................................................................................................................................3

         Progress Notes Not Properly Recorded .............................................................................4

         Reimbursement Standards Not Met ..................................................................................4

         Treatment Plan Incomplete ...............................................................................................4

         Treatment Plan Not Signed ...............................................................................................5

         Treatment Plan Not Completed Timely ............................................................................5

         Need for Continuing Services Not Determined ................................................................5

         Treatment Plan Not Reviewed Timely ..............................................................................5

         Conclusion .........................................................................................................................6

RECOMMENDATIONS .............................................................................................................6

STATE AGENCY COMMENTS ................................................................................................6

OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................................7

APPENDIXES

           A: Federal and State Requirements Related to Continuing Day Treatment Services.....8

           B: Audit Scope and Methodology...................................................................................10




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                                                      iv
        C: Statistical Sampling Methodology ............................................................................12

        D: Sample Results and Estimates ...................................................................................13

        E: State Agency Comments ............................................................................................14




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                                      v
                                              INTRODUCTION

WHY WE DID THIS REVIEW

During a prior review of New York State’s continuing day treatment (CDT) services, we
identified a significant number of services improperly submitted for Federal Medicaid
reimbursement. 1 Subsequent to our audit period, the New York State Department of Health
(State agency) revised its requirements for reimbursing these services from an hourly basis to a
half- or full-day basis that requires a minimum amount of time and services be provided. On the
basis of our prior review and the State agency’s changes to its regulations, we decided to conduct
additional reviews of CDT services. 2

OBJECTIVE

The objective of this review was to determine whether the State agency’s claims for Federal
Medicaid reimbursement for CDT services provided by nonhospital providers complied with
Federal and State requirements.

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

New York’s Medicaid Continuing Day Treatment Services Program

In New York State (the State), the State agency administers the Medicaid program. The State
elected to include Medicaid coverage of CDT services, a form of clinic services, which are
administered by its Office of Mental Health (OMH). 3 OMH’s CDT program provides Medicaid
beneficiaries active treatment designed to maintain or enhance current levels of functioning and
skills, to maintain community living, and to develop self-awareness and self-esteem through the


1
 Review of Medicaid Claims Submitted by Continuing Day Treatment Providers in New York State
(A-02-09-01023, issued October 12, 2011).
2
 We separately audited CDT services provided by hospital-based providers (New York Claimed Hospital-Based
Continuing Day Treatment Services That Were Not in Compliance With Federal and State Requirements
(A-02-11-01038, issued September 5, 2013)).
3
    Although CDT services are administered by OMH, providers submit claims for payment through the State agency.




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                        1
exploration and development of strengths and interests. 4 CDT services include assessment and
treatment planning, discharge planning, medication therapy, case management, psychiatric
rehabilitation, and activity therapy, among others.

To be eligible for the CDT program, the beneficiary must have a diagnosis of a designated
mental illness and a dysfunction due to a mental illness. 5 CDT services are provided in both
hospital and nonhospital settings.

Federal and State Requirements Related to Continuing Day Treatment Services

Section 1905(a)(9) of the Act authorizes clinic services furnished by or under the direction of a
physician. Clinic services are defined as “… preventive, diagnostic, therapeutic, rehabilitative,
or palliative services that are furnished by a facility that is not part of a hospital but is organized
and operated to provide medical care to [beneficiaries]” (42 CFR § 440.90). Whereas these
regulations broadly define Federal requirements for what clinic services are eligible for Federal
reimbursement, States may impose more specific standards for what services are eligible for
Medicaid reimbursement.

Principles and standards for determining allowable costs incurred by State and local governments
under Federal awards are established by 2 CFR part 225 (Office of Management and Budget
Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments). Pursuant to
2 CFR § 225, App. A, C.1.c, to be allowable, costs must be authorized or not prohibited by State
or local laws and regulations.

The State agency requires that a beneficiary’s treatment plan must (1) be completed in a timely
manner; (2) be signed and approved by both the beneficiary and the physician involved in the
treatment; (3) include a diagnosis of a designated mental illness, treatment goals, objectives, and
related services, a plan for the provision of additional services, and criteria for discharge
planning; and (4) be reviewed every 3 months. Also, the beneficiary’s progress notes must be
recorded at least every 2 weeks by the clinical staff members who provided CDT services to the
beneficiary and identify the particular services provided and the changes in goals, objectives, and
services, as appropriate. In addition, CDT services must be adequately documented, including
type, duration, and need for continuing services.

For details on Federal and State requirements related to CDT services, see Appendix A.




4
 A primary function of the CDT program is to provide individually tailored treatment services that address
substantial skill deficits in specific life areas that interrupt an individual’s ability to maintain community living. The
configuration, frequency, intensity, and duration of services correspond to the Medicaid beneficiary’s progress in
achieving desired outcomes.

5
 Designated mental illness diagnoses are Diagnostic and Statistical Manual of Mental Disorders (DSM) diagnoses
other than alcohol or drug disorders, developmental disabilities, organic brain syndromes, or social conditions. The
DSM is the standard classification of mental disorders used by mental health professionals in the United States.



New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                                2
HOW WE CONDUCTED THIS REVIEW

During the period April 1, 2009, through August 17, 2011, the State agency claimed Federal
Medicaid reimbursement totaling approximately $143 million ($71.5 million Federal share) for
1,811,039 claims for nonhospital CDT services. We reviewed a simple random sample of 100 of
those claims. Specifically, we reviewed provider documentation to determine whether CDT
services were provided in accordance with Federal and State requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology, Appendix C contains our
statistical sampling methodology, and Appendix D contains our sample results and estimates.

                                                   FINDINGS

The State agency claimed Federal Medicaid reimbursement for nonhospital CDT services claims
that did not comply with Federal and State requirements. Of the 100 claims in our random
sample, 66 claims complied with Federal and State requirements, but 34 claims did not. Of these
34 unallowable claims, 10 contained more than 1 deficiency. The table below summarizes the
deficiencies noted and the number of claims that contained each type of deficiency.

                          Table: Summary of Deficiencies in Sampled Claims

                                                                                Number of
                                     Deficiency                                 Unallowable
                                                                                  Claimsa
             Progress notes not properly recorded                                   16
             Reimbursement standards not met                                            13
             Treatment plan incomplete                                                  6
             Treatment plan not signed                                                  5
             Treatment plan not completed timely                                        3
             Need for continuing services not determined                                2
             Treatment plan not reviewed timely                                         2
         a
             The total exceeds 34 because 10 claims contained more than 1 deficiency.

The deficiencies occurred because (1) certain nonhospital CDT providers did not comply with
Federal and State regulations and (2) the State agency did not ensure that OMH adequately
monitored the CDT program for compliance with certain Federal and State requirements. On the
basis of our sample results, we estimated that the State agency improperly claimed at least



New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)               3
$18,093,953 in Federal Medicaid reimbursement for nonhospital CDT services that did not meet
Federal and State requirements.

PROGRESS NOTES NOT PROPERLY RECORDED

Progress notes for each beneficiary must be recorded at least every 2 weeks by the clinical staff
members who provided CDT services to the beneficiary. Further, progress notes for each
beneficiary should identify the particular services provided and the changes in goals, objectives,
and services, as appropriate (14 New York Compilation of Codes, Rules, & Regulations
(NYCRR) § 587.16(f)).

For 16 of the 100 claims in our sample, progress notes were not properly recorded by the
nonhospital CDT provider. Specifically, for 14 claims, progress notes were not recorded by a
clinical staff member who actually provided a CDT service during the 2-week period that
included our service date. For the remaining two claims, progress notes did not identify either
the particular services provided or the change in goals, objectives, and services.

REIMBURSEMENT STANDARDS NOT MET

CDT visits are reimbursed on either a full- or half-day basis. To be eligible for reimbursement
for a full-day visit, the CDT provider must document a minimum visit of 4 hours and three or
more medically necessary services. To be eligible for reimbursement for a half-day visit, the
CDT provider must document a minimum visit of 2 hours and one or more medically necessary
services (14 NYCRR § 588.7(d)).

For 13 of the 100 claims in our sample, the nonhospital provider did not meet the applicable
reimbursement standards for a half- or full-day claim. Specifically, for nine full-day claims, the
providers’ documentation did not support either a minimum visit of 4 hours or three medically
necessary services. 6 For four half-day claims, the providers’ documentation did not support
either a minimum visit of 2 hours or one medically necessary service.

TREATMENT PLAN INCOMPLETE

A beneficiary’s treatment plan should include (1) the beneficiary’s designated mental illness
diagnosis; (2) the beneficiary’s treatment goals, objectives, and related services; (3) a plan for the
provision of additional services to support the beneficiary outside the program; and (4) criteria
for discharge planning (14 NYCRR § 587.16(e)).

For 6 of the 100 claims in our sample, the treatment plan lacked 1 of the required elements.
Specifically, for six claims, the nonhospital CDT providers did not include a plan for the
provision of additional services to support the beneficiary outside the program.



6
 For four of the nine full-day claims, the nonhospital CDT provider documented services eligible for reimbursement
at the half-day rate. Therefore, we disallowed the difference between the full- and half-day rates for these claims.



New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                          4
TREATMENT PLAN NOT SIGNED

A beneficiary’s treatment plan, as well as a periodic review of the plan, should include the
beneficiary’s signature to document the beneficiary’s participation in treatment planning and
approving the plan. 7

For 5 of the 100 claims in our sample, the treatment plan was not signed by the beneficiary, and
the case record did not include the reasons (if any) for the beneficiary’s nonparticipation in the
treatment planning and approval.

TREATMENT PLAN NOT COMPLETED TIMELY

A beneficiary’s treatment plan should be completed before the beneficiary’s 12th visit after
admission or within 30 days of admission, whichever occurs first (14 NYCRR § 588.7(k)).

For 3 of the 100 claims in our sample, the treatment plan was not completed within the required
time limit. For two of the claims, the treatment plan was not completed until after the 12th visit
(one after the 17th visit and the other after the 18th visit). For the remaining claim, the treatment
plan was not prepared until 35 days after admission.

NEED FOR CONTINUING SERVICES NOT DETERMINED

A beneficiary’s need for CDT services beyond 156 visits per year should be determined no later
than the 156th visit during such year. The determination should include an estimate of the
number of visits beyond 156 required for the beneficiary within the remaining year. The
required determination should be completed by the treating clinician and documented in the case
record (14 NYCRR §§ 588.7(l) and (m)).

For 2 of the 100 claims in our sample, the associated service date fell beyond the 156th visit for
the calendar year. For both claims, determination of the continued need for CDT services was
not completed by the treating clinician or documented in the case record.

TREATMENT PLAN NOT REVIEWED TIMELY

A beneficiary’s treatment plan must be reviewed every 3 months (14 NYCRR § 588.7(k)).

For 2 of the 100 claims in our sample, the treatment plan was not reviewed every 3 months.
Specifically, for both claims, treatment plan reviews were not completed until approximately
3 months after their due date. 8

7
 14 NYCRR § 587.16(c). If a beneficiary cannot participate in treatment planning or approval of the treatment
plan, reasons for the beneficiary’s nonparticipation must be documented in the case record.
8
 For one claim, the beneficiary’s treatment plan review was due on September 4, 2009; however, a review was not
completed until December 1, 2009. For the second claim, the beneficiary’s treatment plan review was due on July
23, 2009; however, a review was not completed until October 23, 2009.



New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                         5
CONCLUSION

These deficiencies occurred because (1) certain nonhospital CDT providers did not comply with
Federal and State regulations and (2) the State agency did not ensure that OMH adequately
monitored the CDT program for compliance with certain Federal and State requirements. On the
basis of our sample results, we estimated that the State agency improperly claimed at least
$18,093,953 in Federal Medicaid reimbursement for nonhospital CDT services that did not meet
Federal and State requirements.

                                      RECOMMENDATIONS

We recommend that the State agency:

    •   refund $18,093,953 to the Federal Government,

    •   work with OMH to issue guidance to the provider community regarding Federal and
        State requirements for claiming Medicaid reimbursement for nonhospital CDT services,
        and

    •   work with OMH to improve OMH’s monitoring of the CDT program to ensure
        compliance with Federal and State requirements.

                                   STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our first recommendation
(financial disallowance) and did not indicate concurrence or nonconcurrence with our remaining
recommendations. Specifically, State agency officials stated that we based our findings entirely on
State regulations and, if OMH found claims to have violated the State regulations we cited, those
violations “would not have rendered the services non-reimbursable.”

The State agency also disagreed with our determination that, for one sampled claim, progress notes
were not prepared by a staff member who provided a service. Specifically, State agency officials
stated that, for the sampled claim (#73), a progress note clearly demonstrated that “the treatment
provider was actively engaged” with the beneficiary during the 2-week period that included the
sampled service date.

In addition, the State agency disagreed with our determination that certain sampled claims did not
meet reimbursement standards. State agency officials indicated that their preliminary analysis of
our workpapers revealed that providers supplied us with schedules of group services that
beneficiaries were scheduled to attend each day they visited the CDT provider. State agency
officials stated that these schedules document the frequency and types of services planned for each
beneficiary.

The State agency’s comments are included in their entirety as Appendix E.




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)          6
                       OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. We maintain that the plain language of the State’s regulations
provides clear requirements for Medicaid providers to be paid. Pursuant to 2 CFR part 225, Cost
Principles for State, Local, and Indian Tribal Governments (Office of Management and Budget
Circular A-87), to be allowable under Federal awards, costs must “[b]e authorized or not
prohibited under State or local laws or regulations.” Therefore, we may conduct an audit to
determine whether Federal payments have been made in violation of State law and regulations
and recommend disallowances of Federal funding on the findings of such an audit.

For claim #73, there was no documentation that the clinical staff member who wrote the progress
note actually provided a CDT service during the 2-week period that encompassed our sampled
service date. The State agency explained that “M.D.” (the beneficiary’s counselor) wrote the
progress note; however, we found no documentation that “M.D.” provided a CDT service during
the 2-week period.

State agency officials were correct when they stated that the schedules provided to us for certain
claims documented the frequency and types of CDT services planned for each beneficiary.
However, these schedules did not document that the services were actually provided. We used a
combination of group sign-in/sign-out sheets, daily attendance logs, and/or other documentation
to determine whether claims met reimbursement standards.




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)           7
                 APPENDIX A: FEDERAL AND STATE REQUIREMENTS
                RELATED TO CONTINUING DAY TREATMENT SERVICES

Section 1905(a)(9) of the Act authorizes “clinic services” furnished by or under the direction of a
physician.

2 CFR pt. 225 (Office of Management and Budget Circular A-87) establishes principles and
standards for determining allowable costs incurred by State and local governments under Federal
awards. App. A, C.1.c. provides that to be allowable, costs must be authorized or not prohibited
by State or local laws or regulations.

42 CFR § 440.90 defines clinic services as “… preventive, diagnostic, therapeutic, rehabilitative,
or palliative services that are furnished by a facility that is not part of a hospital but is organized
and operated to provide medical care to [beneficiaries].”

14 NYCRR § 587.16(c) states that a beneficiary’s treatment plan and a periodic review of the plan
should include the signature of the beneficiary documenting participation in treatment planning
and approval of the plan. If a beneficiary cannot participate in treatment planning or approval of
the treatment plan, reasons for the beneficiary’s nonparticipation must be documented in the case
record.

14 NYCRR § 587.16(e) states that a beneficiary’s treatment plan should include (1) the
beneficiary’s designated mental illness diagnosis; (2) the beneficiary’s treatment goals,
objectives, and related services; (3) a plan for the provision of additional services to support the
beneficiary outside of the program; and (4) criteria for discharge planning.

14 NYCRR § 587.16(f) states that progress notes for each beneficiary should identify the
particular services provided and the changes in goals, objectives, and services, as appropriate.

14 NYCRR § 587.16(f)(2) states that progress notes for each beneficiary must be recorded at least
every 2 weeks by the clinical staff members who provided CDT services to the beneficiary.

14 NYCRR § 588.7(d) states that CDT visits are reimbursed on either a full- or half-day basis.
To be eligible for reimbursement for a full-day visit, the CDT provider must document a
minimum visit of 4 hours and three or more medically necessary services. To be eligible for
reimbursement for a half-day visit, the CDT provider must document a minimum visit of 2 hours
and one or more medically necessary services.

14 NYCRR § 588.7(k) states that a beneficiary’s treatment plan should be completed before the
beneficiary’s 12th visit after admission or within 30 days of admission, whichever occurs first.
The regulation further states that a beneficiary’s treatment plan must be reviewed every 3 months.

14 NYCRR § 588.7(l) and (m) state that a beneficiary’s need for CDT services beyond 156 visits
per year should be determined no later than the 156th visit during such year. The determination
should include an estimate of the number of visits beyond 156 required for the beneficiary within




 New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)               8
the remaining year. The required determination should be completed by the treating clinician and
documented in the case record.




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)         9
                      APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered 1,811,039 CDT claim lines, totaling $142,914,444 ($71,452,179 Federal
share), submitted by 70 nonhospital CDT providers for the period April 1, 2009, through
August 17, 2011. (In this report, we refer to these lines as claims.) Our audit population did not
include CDT services provided by hospital-based providers, which we audited separately. 9

Our review allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from the Medicaid Management Information file for our audit period, but we did
not assess the completeness of the file.

During our audit, we did not review the overall internal control structure of the State agency or
the Medicaid program. Rather, we reviewed only the internal controls that pertained directly to
our objective.

We conducted fieldwork at the State agency’s and OMH’s offices in Albany, New York; at the
Medicaid Managed Information System (MMIS) fiscal agent 10 in Rensselaer, New York; and at
38 nonhospital CDT providers’ offices throughout the State.

METHODOLOGY

To accomplish our objective, we:

       •   reviewed applicable Federal and State requirements;

       •   held discussions with State agency and OMH officials to gain an understanding of the
           CDT program;

       •   ran computer programming applications at the MMIS fiscal agent that identified a
           sampling frame of 1,811,039 CDT services claims, totaling $142,914,444 ($71,452,179
           Federal share), submitted by 70 nonhospital CDT providers;

       •   selected a simple random sample of 100 claims from the sampling frame of 1,811,039
           claims, 11 and, for each of the 100 claims:




9
 New York Claimed Hospital-Based Continuing Day Treatment Services That Were Not in Compliance With
Federal and State Requirements (A-02-11-01038, issued September 5, 2013).
10
 The State agency uses the MMIS, a computerized payment and information reporting system, to process and pay
Medicaid claims and has contracted with Computer Sciences Corporation to be its MMIS fiscal agent.
11
     The 100 sampled items were claims submitted by 38 nonhospital CDT providers.




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                    10
            o reviewed the corresponding nonhospital CDT provider’s documentation
              supporting the claim and

            o interviewed officials at the corresponding nonhospital CDT providers to gain an
              understanding of the provider’s policies for documenting and claiming CDT
              services;

    •   estimated the unallowable Federal Medicaid reimbursement paid in the sampling frame
        of 1,811,039 claims; and

    •   discussed our findings with State agency and OMH officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)       11
               APPENDIX C: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population was nonhospital CDT services claim lines (claims) submitted by 70 providers in
the State during our April 1, 2009, through August 17, 2011, audit period that the State agency
claimed for Federal Medicaid reimbursement.

SAMPLING FRAME

The sampling frame was a computer file containing 1,811,039 detailed claims for CDT services
submitted by 70 nonhospital providers during our audit period. The total Medicaid
reimbursement for the 1,811,039 claims was $142,914,444 ($71,452,179 Federal share). The
Medicaid claims were extracted from the claims’ files maintained at the State’s MMIS fiscal
agent.

SAMPLE UNIT

The sample unit was an individual Federal Medicaid claim.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 claims.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS), statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame. After generating 100
random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to appraise the sample results. We estimated the
overpayment associated with the unallowable claims at the lower limit of the 90-percent
confidence interval.




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)       12
                    APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                                     Sample Details and Results
                                                                                   Value of
                    Value of                       Value of      Number           Unallowable
                     Frame                          Sample           of             Claims
          Claims    (Federal   Sample              (Federal     Unallowable        (Federal
         in Frame    Share)     Size                Share)        Claims            Share)
         1,811,039 $71,452,179   100                $3,934          34              $1,365

                                  Estimated Unallowable Costs
                     (Limits Calculated for a 90-Percent Confidence Interval)

                             Point estimate                     $24,722,131
                             Lower limit                          18,093,953
                             Upper limit                          31,350,310




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)             13
                              APPENDIX E: STATE AGENCY COMMENTS 





            ============lr                        ~~~~!.~~JK 11:: := ========
             Nirav R. Shah, M.D., M P.H.
             CommiSSIOner 	
                                                  HEALTH 	                                                Sue Kel ly
                                                                                       Executive Deputy Commissioner




                                                                     May 1, 2014




            Mr. James P. Edert
            Regional Inspector General for Audit Services
            Department of Health and Human Services
            Office ofthe Inspector General
            Jacob Javits Federal Building
            26 Federal Plaza, Room 3900
            New York, NY 10278
                                                                     Ref. No. A-02-12-01011
            Dear Mr. Edert:

            Enclosed are the Department of Health' s comments on the U.S. Department of Health and
            Human Services, Office of Inspector General Draft Audit Report #A-02-12-01011 entitled,
            "New York Claimed Nonhospitai-Based Continuing Day Treatment Services That Were Not in
            Compliance With Federal and State Requirements."

            Thank you for the opportunity to comment.




                                                        ~L/          ichael J. Nazar7
                                                                    Deputy Commissioner
                                                                     for Administration
           Enclosure

           cc: 	   Jason A. Helgerson
                   James C. Cox
                   Diane Christensen
                   Lori Conway
                   Robert Loftus
                   Joan Kewley
                   James Russo
                   Ronald Farrell
                   Brian Kiernan
                   Elizabeth Misa
                   OHTP Audit BML
                                                  HEALTH.NY.GOV
                                                   faceb ook.com/NYSDOH
                                                  twitt~,. r-nm/HealthNYGo\1




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                                        14
                             New York State Department of Health 

                                       Comments on the 

                           Department of Health and Human Services 

                                  Office of Inspector General 

                           Draft Audit Report A-02-12-01011 Entitled 

                      New York Claimed Nonhospitai-Based Continuing Day 

                        Treatment Services That Were Not in Compliance 

                              With Federal and State Regulations 


            The following are the New York State Department of Health's (Department) comments in
            response to the Department of Health and Human Services (HHS), Office of Inspector General's
            (OIG) Draft Audit Report A-02-12-01011 entitled, "New York Claimed Nonhospital-Based
            Continuing Day Treatment Services That Were Not in Compliance with Federal and State
            Regulations."

            Recommendation #I

            Refund $18,093,953 to the Federal Government.

            Res ponse #1

            The Department and the New York State Office of Mental Health (OMH) strongly disagree with
            the recommendation for the state to refund $18,093,953 to the Federal Government on the basis
            that OIG's und erlying audit methodology is flawed.
             Continuing Day Treatment Programs provide active treatment and rehabilitation services to the
             seriously mentally ill. These services are designed to maintain or enhance a patient's current
             level of functioning and skills, to maintain community living and to develop self-awareness and
             self-esteem through the exploration and development of patient strengths and interests.
             Continuing day treatment programs provide the following services: assessment and treatment
            planning, discharge p lanning, medication therapy, medication education, case management,
            health screening and referral, psychiatric rehabilitation readiness development, psychiatric
            rehabilitation readiness determination and referral and symptom management. The following
            additional services may also be provided: supportive skills training, activity therapy, verbal
            therapy, crisis intervention services and clinical support services. As such these programs
            provide a vital service to people in the community. OIG conducted an audit and recommended a
            disallowance of $18,093,953. This recommendation results from OIG's review of a san1ple of
             100 claims out of 1,8 11 ,039. Of the 100 c laims sampled, OIG found 34 claims to be non­
            reimbursable, despite the facts that: there is no finding that these services were not medically
            necessary; for all claims the physician who signed the treatment plan was involved in the
            treatment of that patient; for all but one claim the treatment plan was signed by the patient; for all
            claims the service plan review was signed by the physician involved in treatment and contained
            all the required elements; and, for all but two claims oro found evidence that services were
            rendered.




New YorkMedicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                                       15
             The auditors ignored the appropriateness of r emedies other th@_disallowance for alleged
             regulatory violations.

             The type of violations alleged by the OIG, even had they been violative of the regulatory
             prov isions cited, would not have rendered the services non-reimbursable under the same
             regulations being applied by the OIG. Rather, they would have resulted in alternative
             enforcement actions by the state, which are specifically provided for in the regulations in
             question.
            OMH maintains various means of monitoring and enforcing provider compliance with program
            standards. Among these are requiring that providers submit a plan of correction addressing
            program deficiencies, increasing the frequency of program inspections, the imposition of fines
            and the limitation, suspension or revocation of a provider's license. Section 587.22 of the
            regulation in question, "Enforcement standards and procedures," makes this explicit. This
            section specifically provides that where OMH determines that a provider of service is not
            exercising due diligence in complying with the state regulatory requirements pertaining to this
            program, OMH will give notice of the deficiency to the provider, and may also either request that
            the provider prepare a plan of correction, or OMI-T may provide techni cal assistance. If the
            provider fails to prepare an acceptable plan of correction within a reasonable time, or if it
            refuses to permit OMH to provide technical assistance or effectively implement a plan of
            correction, then it will be determined to ·be in violation of the program regulations. Such a
            determination, as we ll as a fai lure to comply with the terms ofthe provider's operating certificate
            or with the provisions of any applicable statute, rule or regulation, subjects the provider to a
            possible revocation, suspension or limitation of the provider's operating certificate, or the
            imposition of a fine. It is only when a provider of service seeks reimbursement in excess of that
            provided for in Section 593.7, which sets out the program reimbursement standards, that OMH
            would make a referral to the Department for the recovery of an overpayment.
            Thus, the OIG has iss ued a recommended disallowance based entirely upon state regulations. In
            so doing, however, it has chosen to ignore provisions ofthe regulation it is purporting to enforce.
            Further, because OIG's findings are based solely on its own application of State regulations,
            rather than on any underlying Federal laws or regulations, the discretion ordinarily afforded HHS
            to interpret the laws and regulations with which it is charged with enforcing does not apply.
            Rather, discretion should be afforded to the State's interpretation of its own regulations[!) .


            'Chevron U.S.A.. Inc. v. Natural Resources Defense Counci l. Inc. 467 U.S. 837. 104 S. Ct. 2778. 81l. Ed. 2d 694
            (Agency determinations and statutory interpretations, made in relation to areas in which the agency has particular
            expertise, are to be affirmed unless " unreasonable.") : Arif v. New York City Taxi and Limousine Com'n. 3 A.D. 3d
            34S. 770 N.Y.S. 2d 344 (1" Dep't 20041. leave t o appeal granted, 2 N.Y. 39 70S. 780 N.Y.S. 2d 311. 812 N.E.2d 1261
            (2004 ) and appeal withdrawn, N.Y. 3d 669. 784 N.Y.S.2d 7. 817 N.E.2d 82S (2004) ("Where such a rational basis
            exists, an administrative agency's construct ion an d i nterpretation of its own regulations and of the statu t e under
            which it functions are entit led to grea t deference.") "It is well settled that the constructi on given statutes and
            regulations by t he agency responsible for their administration, if not ir rational or unreasonable, should be upheld."
            Matter of Mounting & Finishing Co. v. ~.cGoldrick. 294 N.Y. 104. 108. 60 N.E.2d 82S, 827; Matt er of Colgate­
            Palmolive-Pee.tS:o~ v. Josep h, 308 N.Y. 333. 338, 125 n.E.2d 857. 859; Uda ll v. Tallman. 380 U.S. 1, 16-18. 85 S.Ct.
            792, 13 l.Ed .2d 616; Power Reactor Co. v. International Union of Electrician_~. 367 U.S. 396. 408. 81 5.Ct. 1529. 6
            L.Ed.2d 924.) see also {Mounting & Finishing Co. ca.:;e (294 N.Y.. at p. 108. 60 N.E.2d at p. 8271. (statutory

                                                                      2




New YorkMedicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                                                        16
             Progress Notes Not Properly Recorded
             The OIG disallowed cases after determining that progress notes were not properly recorded. For
             example in Case #73, the OIG determined that the progress note was not prepared by a staff
             member who provided a service. This determination was made despite there being a progress
             note written by M. D. (the beneficiary's counselor) on 3/24/14 and co-signed by R. B. covering
             the two week period, 3/11110 to 3/24/10, which includes the service date, 3119/10. This note
             indicates ongoing familiarity and contact with the beneficiary. "M. stated to worker in a I: I
             session that there are no active feelings of being controlled. Because of M's lack of experience
             to those feelings, it is apparent that M. remains above baseline during this review period ....M.
             informed worker that she has no desire for self-injury, and she denie s wanting to self-inflict. M.
             has not initiated or discussed the issues ofsuicidal ideation in the groups ....The case worker will
             continue to encourage, and emphasize the importance of attending group sessions ...." . The
             content of the 3/24114 progress note clearly demonstrates that the treatment provider was
             actively engaged with the client during the two week period which includes the service date. This
             claim clearly should have been allowed by OJG.

             Reimbursement Standards Not Met
            The OIG also disallowed claims in the draft audit report based on the alleged lack of
            documentation to support that a minimum visit of four hours or three medically necessary
            services were provided. Preliminary state analysis of the OIG work papers revealed that the OIG
            auditors were given a schedule of the group services that were provided to each patient for each
            day they attended the continuing day treatment program. These schedules document the
            frequency and the types of services planned for the patient. Progress notes also recorded the
            patient's attendance and progress in group therapies. Included in OIG's work papers are
            attendance sheets which summarize the patient's participation in groups.
            A more thorough review of the case documentation will be performed by Behavioral
            Organizational Consulting Associates (BOCA) which is an independent consulting firm that has
            been hired by OMH. BOCA has experience in conducting evaluations, inspections and reviews
            in behavioral health care since 1988. We expect BOCA to find supporting documentation to
            refute these disallowed claims.
            Recommendation #2:

            Work with OMil to issue guidance to the provider community regarding Federal and State
            requirements for claiming Medicaid reimbursement for nonhospital CDT services.

            Response #2:

            OMH has distributed guidance to continuing day treatment providers regarding reimbursement
            and Medicaid. In January 2004, OMH disseminated guidance to CDT providers regarding
            claiming Medicaid reimbursement including, "Medicaid Requirements for OMH Licensed

            construction is the f unction of the courts "but where the question is one of specific application of a broad
            statutory term in a proceeding in which the agency administering th e statute must determine it initially, the
            reviewing viewing court's function is limited") (National Labor Relations Board v. Hearst Publications. 322 U.S. llJ.,.
            131, 64 S.Ct. 851, 860, 88 L.Ed. 1170).


                                                                      3




New YorkMedicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                                                        17
             Outpatient Programs" (January 2004), "Continuing Day Treatment Programs, New
             Reimbursement Methodology." (January 2009), as well as other guidance documents focusing
             on the topics of medical necessity, person-centered p laiUliug, and related topics.
             Recommendation #3

             Work with OMH to improve OMH's monitoring of the COT program to ensure compliance with
             Federal and State requirements.

             R esponse #3

             OMH's monitoring program ensures that providers complied with Federal and State
             requirements.      Over the four-year audit period, OMH licensin g staff conducted 285
             recertification surveys at 170 licensed COT programs. Each was conducted by trained staff from
             the licensing unit of the OMH Field Office in the region where the program was located. Survey
             visits were conducted on-site and included observation; interviews with program staff,
             administrators and recipients; and the review of the program policies and procedures as well as
             open and closed records.

             The surveys uti lized OMH's Tiered Certification standards for outpatien t programs. The
             programs were evaluated on specific outcome-oriented performance indicators within five
             compliance categories. Each citation for inadequate performance on an indicator was identified
             in a Monitoring Outcome Report sent to the program, with a satisfactory Plan of Corrective
             Action required to be implemented. The length of the program operating certificate was related
             to performance on the standards, with additional weight given to key indicators.

            The OMT-1 monitoring process seeks, whe rever possible, to promote improvement in the quality
            of services as well as program compliance with applicable regulations. Implementation of the
            Plan of Corrective Action is monitored, with additional visits conducted as needed. Further,
            technical assistance is often provided to improve program performance in specific areas, and
            programs with limited duration licenses, resulting from numerous or significant citations, are
            resurveyed on a more frequent basis. When it is determined that a provider has repeatedly failed
            to take necessary corrective action or operates in such a maiUler as to potentially adversely affect
            the health or well-being of recipients, the program can face suspension or revocation of the
            operating certificate, imposition ofa fme or other sanctions.




                                                             4




New York Medicaid Nonhospital Continuing Day Treatment Services (A-02-12-01011)                                    18
